      Review of Internal Control Over the Actuarial Projection Process
                       Report No. 05-04, May 5, 2005


                                 INTRODUCTION 



This report presents the results of the Office of Inspector General’s (OIG)
assessment of controls over the actuarial projection process that serves as the
basis for the Railroad Retirement Board’s (RRB) statement of social insurance.

Background

The RRB is an independent agency in the executive branch of the Federal
government that administers the health and welfare provisions of the Railroad
Retirement Act (RRA), funded primarily by payroll taxes and transfers from the
trust funds of the Social Security system. During fiscal year (FY) 2004, the
Railroad Retirement program paid over $9 billion in benefits and reported
approximately $30 billion in assets at fiscal year-end.

The RRB submits annual reports on the financial condition of the Railroad
Retirement system to the President and Congress. Since FY 2000, the RRB has
also been required to publish a statement of social insurance, and certain other
disclosures, with its annual financial statements. Effective with FY 2006 financial
reporting, the statement of social insurance will be classified as a basic financial
statement and will be subject to the more rigorous audit procedures applied to
such statements, including tests of internal control.

The RRB established the Management Control Review Committee (MCRC) to
provide the Board Members and all RRB stakeholders with reasonable
assurance that the RRB is taking systematic and proactive measures to develop
and implement results-oriented, cost-effective management controls. The MCRC
is also responsible for continually assessing the adequacy of management
controls, identifying needed improvements, taking appropriate corrective actions,
and reporting annually on management controls. To this end, the MCRC issues
guidance, provides advice on control issues referred by all levels of
management, encourages and supports coordination of control issues crossing
organizational lines and advises senior management on whether reported
weaknesses are material. The MCRC helps managers accomplish their
management control objectives and obtain ongoing reasonable assurance that
the missions of their assessable units are being accomplished and the resources
entrusted to them are protected.

The basis for the RRB’s annual reports on the financial condition of the Railroad
Retirement system and the statement of social insurance is the triennial actuarial
valuation of the assets and liabilities of the program. The valuation is updated for
reporting during interim periods.


                                         1

The Bureau of the Actuary is responsible for the preparation of the triennial
valuation, interim updates and related required reports, including the statement of
social insurance. That organization is assisted by the Actuarial Advisory
Committee which provides counsel as to the structure, actuarial methods,
actuarial assumptions, and procedures of the valuation, periodic updates, and
subsequent reports.

One of the RRB’s strategic goals is to serve as responsible stewards for the
customers’ trust funds and agency resources by ensuring that trust fund assets
are projected, collected, recorded, and reported appropriately. This review
supports the agency’s efforts in meeting that goal.

Objective

The objective of this review was to assess the adequacy of controls over the
actuarial projection process that serves as the basis for the RRB’s statement of
social insurance.

Scope

The scope of this review was internal control over the actuarial projection
process including those over the factors, assumptions, data, model, estimates,
and the related work processes that combine these elements into actuarial
projections and published reports. See Appendix I for definitions of this
terminology.

The scope of this audit specifically excluded tests of the accuracy of the
projections that result from the process. Risk of inaccurate estimates is a
potential effect of inadequate controls.

Methodology

To accomplish our objective, we

   •	 obtained and reviewed documentation supporting the management control
      review of the actuarial services assessable unit;
   •	 obtained and reviewed documentation related to the operation of internal
      control including workforce planning and correspondence with the
      Actuarial Advisory Committee;
   • interviewed responsible staff in the Bureau of the Actuary;
   •	 elicited a description of process controls, including quality assurance
      initiatives, using an internal control questionnaire developed by audit staff;
      and
   • observed the electronic spreadsheet that implements the actuarial model.



                                         2

We used the Government Accountability Office’s (GAO) Standards for Internal
Control in the Federal Government as the primary criteria for this assessment.

Our work was performed in accordance with generally accepted government
auditing standards as applicable to the objective. Fieldwork was performed at
the RRB headquarters in Chicago, Illinois during January through February 2004,
and January through February 2005.


                             RESULTS OF REVIEW



Our review disclosed that the Bureau of the Actuary has not implemented a
comprehensive system of internal control for actuarial services, and that the
agency’s management control review program was not effective in disclosing the
system’s deficiencies. These deficiencies weaken the RRB’s ability to ensure the
quality and continuity of its actuarial services. As a result, higher levels of
management should limit the reliance that they place on the system of controls
for actuarial services when offering assurance on the adequacy of internal control
agency-wide.

Effective for FY 2006 reporting, the statement of social insurance will become a
basic financial statement. At that time, the lack of a comprehensive system of
internal control could adversely impact the auditors’ opinion with respect to the
effectiveness of internal control in preventing material misstatement.


System of Internal Control Needs Improvement

The Bureau of the Actuary has not developed an adequate program of internal
control for its actuarial projections and related reports. Management and staff in
the Bureau of the Actuary have described extensive controls over the preparation
of projections, estimates and reports; however, they have not formalized their
policies and procedures, do not capture evidence of the operation of controls and
do not perform periodic evaluations of compliance with internal requirements.

Federal managers are required to develop and maintain effective programs of
internal control to provide reasonable assurance that agencies are achieving
their objectives with respect to the effectiveness and efficiency of operations,
reliability of financial reporting, and compliance with applicable laws and
regulations. The Bureau of the Actuary has not fulfilled that requirement because
its system of controls for actuarial services lacks key elements.




                                        3

   	 The Bureau of the Actuary does not have formal, published policies and
      procedures for actuarial services. They rely largely on informal
      communications and institutional knowledge combined with a small, highly
      trained professional staff with little turnover to ensure a common
      understanding of management’s expectations.
   	 The bureau does not evidence the processes that comprise key controls
      over accuracy such as peer-to-peer reviews, analysis and discussion
      among the professional staff, or review by the Chief Actuary.
   	 Bureau management relies on the quality of its professional staff to adhere
      to both organizational and professional requirements but has not
      formalized a quality assurance program to confirm that those requirements
      are met.
   	 Bureau personnel have described an ongoing dialogue with the Actuarial
      Advisory Committee but very little documentation is available for review.
      The bureau retains copies of materials sent to the committee but can
      seldom evidence the committee’s response because their meetings and
      verbal exchanges are infrequently documented.
   	 The model used for actuarial projections is fully documented only in the
      electronic spreadsheets that are used to perform the calculations. The
      relationship between the model and the provisions of law that it
      implements has not been documented.
   	 The bureau does not maintain evidence of tests of data inputs or the
      comparisons and projection results that are generated when projections
      are first developed or updated.

The deficiencies in the control structure for actuarial services weaken the RRB’s
ability to ensure the quality and continuity of its actuarial services.

Recommendation #1

We recommend that the Bureau of the Actuary review and revise their internal
control program to comply with applicable GAO standards. Such a program
would include, but not be limited to:

      formal policies and procedures;
      evidence of the operation of controls;
   	 a quality assurance program to assess compliance with organizational
      standards; and
   	 support for the actuarial model and related data, factors and assumptions
      as executed.

Management’s Response



                                         4

The Bureau of the Actuary does not agree with the foregoing audit finding stating
that “[a]lthough we agree that our documentation of internal controls has not
been designed to facilitate an audit, we believe that our current system of internal
controls is effective and efficient.” The bureau does not acknowledge that the
recommended improvements are required but has agreed “to review our control
program for compliance with GAO standards and to make changes if needed.”

In his response, the Chief Actuary describes the controls used to ensure the
accuracy and quality of the actuarial projection process and states that “there is
no risk that any step in the development of the projections will not be reviewed
carefully and in detail…” He also cites the involvement and findings of the
Actuarial Advisory Committee as well as the conclusion of an independent
actuarial review as evidence of the quality of the projection process. In addition,
the Chief Actuary expressed concern that “in assessing our internal control
activities, the OIG report does not take into account the professional and
technical staffing of the bureau and the nature of its work.”

The full text of the Chief Actuary’s response is included as Appendix II to this
report.

OIG’s Comments on Management’s Response

The Chief Actuary has mischaracterized the issue; the OIG’s evaluation criteria
did not include whether any aspect of the Bureau of the Actuary’s system of
internal controls was “designed to facilitate an audit.” The inability of the Bureau
of the Actuary to respond to audit inquiries with concrete evidence of the design
and operation of internal control is a symptom of the deficiency not the basis of
the audit finding.

The OIG’s finding was that the Bureau of the Actuary’s existing control structure
does not include the basic building blocks of an effective system; the primary
evaluation criteria were taken from GAO’s Standards for Internal Control in the
Federal Government. The GAO was mandated by law to promulgate these
standards and the OIG considers them definitive. These standards are
sufficiently general that they can be implemented in many ways depending upon
organizational mission. The Bureau of the Actuary has not proffered any unique
qualities that should exempt, or prevent, their organization from complying with
GAO standards.

In their response, as during the audit, the Bureau of the Actuary has tried to
redirect the discussion to the experience and professional credentials of its staff
and the technical nature of their work. Such subjective evaluations of
professionalism will not meet the government-wide requirement for a
documented system of controls based on an objective assessment of risk.




                                         5

More Effective Management Control Review Process Needed

The RRB’s management control review process has not been effective in
assessing risk, identifying control objectives or developing control techniques for
actuarial projections and related work products. As a result, higher levels of
agency management do not have an adequate basis for reliance on the
management control review for actuarial services when providing assurance on
the effectiveness of internal control agency-wide.

Standards for Internal Control in the Federal Government define the minimum
level of quality acceptable for internal control in government and provide the
basis against which internal control is to be evaluated. The required elements
include a risk assessment process, implementation of appropriate control
activities, and monitoring to assess the quality of performance over time.

To meet these standards, management must identify all relevant objectives and
associated risks for each significant agency activity as part of the risk
assessment and analysis process. Management must also identify the actions
and control activities needed to address the risks and direct their implementation.
The RRB ‘s MCRC provides formal, detailed guidance to managers in performing
the assessments and preparing documentation to support the agency’s overall
assessment of the adequacy of internal control.

The Bureau of the Actuary developed a process flowchart, risk assessment, chart
of controls and control techniques for the actuarial services assessable unit as
part of the RRB’s management control review process. The RRB’s MCRC
accepted the Bureau of the Actuary’s assessment of risk and control
effectiveness even though it is insufficiently detailed.

   	 The identification of risk was limited to the accuracy of tax rates and
      appropriations.
   	 The assessment does not reflect the Bureau of the Actuary’s role in other
      arenas such as assessing the impact of proposed legislation or
      preparation of the statement of social insurance.
   	 The chart of controls for actuarial services consists of a single, overly
      broad control objective supported by four control techniques, three of
      which are workproducts, rather than internal control techniques.

The management control review process was not effective because it did not
identify the weaknesses in the control assessment for actuarial services. The
process did not provide responsible management with direction and assistance in
developing an effective system of internal control. In the absence of feedback to
the contrary, the Bureau of the Actuary would have had reason to believe that it
had performed an adequate management control review.




                                         6

Recommendation #2

We recommend that the MCRC work with the Bureau of the Actuary to develop
an internal control assessment process for the Actuarial Services Assessable
Unit that meets agency and GAO standards for internal control.

Management’s Response

The MCRC has agreed to work with the Bureau of the Actuary to document
current Actuarial Services controls. The full text of the MCRC’s response is
included as Appendix III to this report.


Weak Controls Could Adversely Impact Future Financial Audits

The Bureau of the Actuary’s existing control structure is inadequate to support an
audit of the RRB’s statement of social insurance.

Effective with FY 2006 financial reporting, the statement of social insurance,
currently included as required supplementary information with the RRB’s financial
statements, will be classified as a basic financial statement. At that time, internal
control over the preparation of that statement will be subject to formal evaluation
as part of the annual audit of the agency’s financial statements. Internal control
is evaluated during a financial statement audit for the purposes of determining
the reliance that the auditors may place on management’s efforts to ensure that
the information presented is free of material misstatement and conforms to
applicable requirements.

In a weak control environment, financial auditors typically expand their detailed
tests. However, with respect to the statement of social insurance, the American
Institute of Certified Public Accountants has stated that “the complexity and
subjectivity of the estimates, the volume of data involved, and the importance of
controls ordinarily would make performing only substantive tests an ineffective
strategy.”

Our evaluation of internal control over the preparation of the statement of social
insurance disclosed weaknesses that would prevent auditors from relying on
management’s controls, due primarily to the lack of documentation of the control
structure and evidence of the operation of internal control. Auditors cannot test
controls of which no evidence has been preserved and cannot rely on controls
that have not been tested. If left uncorrected, these deficiencies could rise to the
level of material weakness.

Our recommendations for corrective action have been presented in the detailed
discussion of internal control issues presented in the preceding sections of this
report.



                                         7

Workforce Planning Could Be Improved

The Bureau of the Actuary’s workforce management plan would be enhanced if it
were updated annually and revised to include a formal training program. The
absence of these elements in the current plan reduces the value of the workforce
planning process at the bureau and agency-wide level.

Standards for Internal Control in the Federal Government describe workforce
planning as a continuous process that ensures the agency has the right number
of people in the right jobs at the right time. Management should ensure that skill
needs are continually assessed, and that the organization is able to obtain a
workforce that has the skills required to achieve organizational goals.

The Bureau of the Actuary’s workforce plan has not been updated since June
2001. Although workforce plans typically cover five years, they should be
reviewed periodically to minimize the risks associated with unanticipated changes.
In addition, the bureau’s workforce plan does not include a professional
development training program. The Chief Actuary approves all requests for
training paid for by the RRB; however, bureau management does not formally
assess training needs or maintain a history of training accomplishments.

Recommendation #3

We recommend that the Bureau of the Actuary revise its workforce plan to
include a professional development program and revise the plan at least
annually.

Management’s Response

The Bureau of the Actuary has agreed to revise its workforce plan to include a
professional development program for actuaries. However, they do not agree
that it is necessary to revise the plan annually. The full text of the Chief Actuary’s
response is included as Appendix II to this report.




                                          8

                                                                       Appendix I
                                  Definitions 

                       Actuarial Projection Terminology

                 Relating to the Statement of Social Insurance 


Factors

Factors are the elements or variables that affect income or expenditures for a
program, and for which data must be gathered and assumptions must be
generated, for example the legal, economic, and demographic factors.

An example of a factor is the number of individuals reaching age 65 in a specific
year.

Assumptions

Assumptions are expectations about what will happen in the future. An
assumption is expressed as a value or direction assigned to a factor.

An example of an assumption is that there will be a 1% increase each year in the
next five years in the number of women working outside the home.

Data

Data are organized factual information used for analysis or to make decisions.

An example is census data and classifications of that data, such as the
population classified by sex or age. Data may be developed within the entity that
prepares the statement of social insurance, or it may come from sources outside
the entity.

Model

A model is the method or formula for mathematically expressing how the
assumptions and data relate to each other.

For example, a model might predict that a 1% decline in the birth rate in a given
year will result in a .2% decrease in social insurance income and benefit
payments ten years later. A model is a set of coded instructions, rules, or
procedures used to perform a desired sequence of events or to obtain a result.
Typically, models are developed by using various computer applications.

Estimates

Estimates are the amounts or valuations that result after processing the factors,
data, and assumptions in a model. These estimates will be used in preparing the
statement of social insurance.




                                        9

     Appendix II




11
12
     Appendix III




13
